App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-50530
TODD A. ENGLISH,
Plaintiff-Appellant,
v.
SONNY PERDUE, Secretary, USDA,
Defendant-Appellee.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 6:16-CV-306.
(Filed Jun. 19, 2019)
Before: HIGGINSON and WILLETT, Circuit Judges,
and BROWN, District Judge.1
STEPHEN A. HIGGINSON, Circuit Judge.*
Todd English, an employee of the United States
Department of Agriculture (USDA), brought claims for
1 Debra M. Brown, United States District Judge, Northern
District of Mississippi.
* Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

App. 2
sex- and age-based discrimination, hostile work envi­
ronment, and retaliation against the Secretary of Ag­
riculture in his official capacity. The district court
granted the Secretary’s motion to dismiss for failure to
state a claim, and we affirm.
English, through counsel, filed his original com­
plaint in July 2016 and an amended complaint in July
2017. The Secretary moved to dismiss, and a magis­
trate judge recommended that the motion be denied.
Shortly afterwards, English filed a second amended
complaint with the magistrate judge’s leave.2 English’s
counsel then withdrew.3 Contrary to the magistrate
judge’s recommendation, the district court granted the
2 The magistrate judge provided leave at a telephonic status
conference. A minute entry for the conference reflects that Eng­
lish’s counsel had said he intended to file a second amended com­
plaint. “He asked if he needed leave of Court to file it and
[Magistrate] Judge Manske told him to go ahead and file it since
[Assistant U.S. Attorney] Cooper did not have an objection.”
3 English has proceeded pro se since then. In this appeal, he
challenges the magistrate judge’s approval of his counsel’s motion
to withdraw. The magistrate judge had denied two previous mo­
tions to withdraw. The magistrate judge granted counsel’s third
motion, which was accompanied by an affidavit citing fundamen­
tal disagreement over the scope of representation, among other
problems. The depth of that disagreement is evident from the
lengthy portion of English’s brief addressing the issue.
“An attorney may withdraw from representation only upon
leave of the court and a showing of good cause and reasonable
notice to the client.” Matter of Wynn, 889 F.2d 644, 646 (5th Cir.
1989). The matter of attorney withdrawal is “entrusted to the
sound discretion of the court and will be overturned on appeal
only for an abuse of that discretion.” Id. (quotation omitted). We
see no abuse of discretion here.

App. 3
Secretary’s motion to dismiss, prompting English’s ap­
peal.
For the purposes of this appeal, we focus on the
second amended complaint, taking its well-pleaded al­
legations as true. See Allen v. Walmart Stores, L.L.C.,
907 F.3d 170,177 (5th Cir. 2018).4
English’s complaint explained that he is a man
over age 40 who, at the relevant time, was employed by
the USDA Office of Rural Development’s Single Family
Housing Division in Temple, Texas. English alleged
that his supervisor, Theresa Jordison, and the state di­
rector, Francisco Valentin, discriminated against him
based on his age and sex, created a hostile work envi­
ronment, and retaliated against him after he filed an
Equal Employment Opportunity complaint. He in­
voked both Title VII of the Civil Rights Act, 42 U.S.C.
§ 2000e et seq., and the Age Discrimination in Employ­
ment Act (ADEA), 29 U.S.C. § 621 et seq.5
4 English’s brief adds extensive detail not present in his com­
plaint. His arguments against the district court’s dismissal of his
lawsuit are based largely on this new detail. We cannot and do
not consider English’s many allegations advanced for the first
time on appeal. See Edionwe v. Bailey, 860 F.3d 287, 293 n.l (5th
Cir. 2017). If we did consider English’s new allegations, their fo­
cus on civil-service rules and on an apparent union-related dis­
pute in English’s workplace—to the near-total exclusion of the
antidiscrimination laws on which his suit is based—would
strengthen our conclusion, explained below, that English’s sex or
age did not plausibly cause his troubles at work.
5 English cited the ADEA for the first time in his second
amended complaint. He mentioned age discrimination in his first
amended complaint, but without citing or naming the statute.

App. 4
English’s disparate-treatment allegations cen­
tered on a female coworker under age 30 who was al­
legedly "groom [ed] for promotion” by Jordison and
given “assignments and opportunities” that English
believed he should have received. English asserted
that Valentin likewise gave female coworkers prefer­
ential treatment. English also said that he received an
unwarranted “Does Not Meet” performance review
from Jordison that rendered him ineligible for promo­
tion.
English’s complaint also alleged that he experi­
enced a work environment made hostile by the conduct
of Jordison and his coworkers. He said that Jordison
ridiculed and berated him publicly, subjected him to
unwarranted scrutiny, and dealt unfairly and capri­
ciously with his work leave, among other wrongs. Jord­
ison also allegedly tolerated snide remarks toward
English by his coworkers6 and, when English com­
plained, told him to find another job.
English further claimed that he experienced retal­
iation “for pursuing a Charge of Discrimination.” The
complaint did not say when he filed that charge, but it
did say that, “subsequent to [English] filing his
Charge,” Valentin undertook various retaliatory acts.
Those acts included an “unreasonable and warrantless
investigation,” unjustified placement of English on ad­
ministrative leave, restrictions on him in the work­
place, and a transfer to another job. Though it seems
6 A “younger female coworker” allegedly called English a
“dumb sh*t.”

App. 5
from English’s complaint that the allegedly hostile
work environment existed before he filed his Charge,
English alleged that the environment grew yet more
hostile afterwards.
Reviewing English’s first amended complaint, the
magistrate judge recommended denying the Secre­
tary’s motion to dismiss as to two Title VII claims: Eng­
lish’s hostile work environment claim, and the
retaliatory hostile work environment claim that Eng­
lish seemingly intended to bring.7 The magistrate
judge also recommended granting leave to amend, due
to English’s complaint conflating the various types of
claims under Title VII. The magistrate judge later
granted that leave himself.
The district court, contrary to the magistrate
judge’s recommendation, granted the Secretary’s mo­
tion to dismiss. Focusing on English’s first amended
complaint, the district court concluded that English’s
complaint failed to plead the requisite causal links ad­
equately. In the district court’s view, English did not
plausibly allege that he experienced discrimination or
hostility due to his sex or his age, nor did he plausibly
allege that the alleged retaliatory acts he endured

7 This court has not yet recognized the latter claim, though
the other circuit courts have. See Heath v. Bd. of Supervisors for
So. Univ. and Agric. and Mech. College, 850 F.3d 731, 741 n.5 (5th
Cir. 2017).

App. 6
were due to the protected activity of filing a Charge of
Discrimination.8
“We review a district court’s grant of a motion to
dismiss based on failure to state a claim de novo, ac­
cepting all well-pleaded facts in the complaint as true.”
Raj v. La. State Univ., 714 F.3d 322, 329—30 (5th Cir.
2013). “We affirm the district court’s grant of a motion
to dismiss when the plaintiff has not alleged enough
facts to state a claim to relief that is plausible on its
face or has failed to raise its right to relief above the
speculative level, on the assumption that all the alle­
gations in the complaint are true (even if doubtful in
fact).” Id. at 330 (quotation omitted). “To state a claim
that is facially plausible, a plaintiff must plead factual
content that ‘allows the court to draw the reasonable
inference that the defendant is liable for the miscon­
duct alleged.’ ” Id. (quoting Ashcroft v. Iqbal, 556 U.S.
662, 686 (2009)).
We begin with English’s hostile work environment
claims. To establish a hostile work environment claim
under Title VII, the plaintiff must prove that he (1) be­
longs to a protected group; (2) was subjected to unwel­
come harassment; (3) the harassment complained of
was based on his membership in the protected group;
(4) the harassment complained of affected a term, con­
dition, or privilege of employment; and (5) the em­
ployer knew or should have known of the harassment
8 Though the district court focused on English’s first
amended complaint, it acknowledged the second amended com­
plaint and ruled that it did not remedy the deficiencies of the ear­
lier filing.

App. 7
in question and failed to take prompt remedial action.
Williams-Boldware v. Denton County, Tex., 741 F.3d
635, 640 (5th Cir. 2014). To establish the equivalent
claim under the ADEA, the plaintiff must show that (1)
he was over the age of 40; (2) he was subjected to har­
assment, either through words or actions, based on
age; (3) the nature of the harassment was such that it
created an objectively intimidating, hostile, or offen­
sive work environment; and (4) there exists some basis
for liability on the part of the employer. Dediol v. Best
Chevrolet, Inc., 655 F.3d 435, 441 (5th Cir. 2011).
The district court correctly concluded that English
did not adequately plead that his allegedly hostile
work environment was based on his sex or his age.
Nothing in his allegations makes it more than merely
speculative that his sex or age caused the various
forms of hostile treatment he allegedly endured. His
complaint lacks, for instance, allegations of hostile agebased remarks that we have previously found ade­
quate to state a claim. E.g., Dediol, 655 F.3d at 438
(concerning an elderly man berated as “old man,”
“pops,” and “old m*****f*****»)t Tim one allegedly hos­
tile remark directed at English, supra note 16, was not
sex- or age-related. Even if it were, “isolated incidents
(unless extremely serious)” are insufficient for a hostile
work environment claim. Turner v. Baylor Richardson
Med. Ctr, 476 F.3d 337, 348 (5th Cir. 2007). Moreover,
though English alleged a variety of inconsiderate and
even mean conduct in his workplace, he described that
conduct only in a conclusoiy fashion. None of his alle­
gations plausibly shows that his sex or age was the

App. 8
basis of the allegedly hostile conduct he experienced.
As such, dismissal was the appropriate course. See Raj,
714 F.3d at 331.
We turn next to English’s retaliation claims. To
state a retaliation claim under Title VII, a plaintiff
must show that (1) he engaged in conduct protected by
Title VII; (2) he suffered a materially adverse action;
and (3) a causal connection exists between the pro­
tected activity and the adverse action. Jenkins v. City
of San Antonio Fire Dep’t, 784 F.3d 263, 269 (5th Cir.
2015). A retaliation claim under the ADEA entails the
same showing. See Wooten v. McDonald Transit Assocs.,
Inc., 788 F.3d 490, 496-97 (5th Cir. 2015).
The district court correctly concluded that English
failed to state a retaliation claim because he did not
show a causal link between protected activity and ad­
verse action. In retaliation cases, “causation is difficult
to prove” and calls for “a highly fact specific” analysis.
Nowlin v. Resolution Trust Corp., 33 F.3d 498, 508 (5th
Cir. 1994). Among other factors, we have suggested
that an employee’s “past disciplinary record,” an em­
ployer’s departure from “typical policy and proce­
dures,” and “the temporal relationship between the
employee’s conduct and discharge” might shed light on
the causal component of a retaliation claim. Id.
As the district court noted, English’s complaint
contained no temporal detail other than that various
alleged acts by the state director, Valentin, were “sub­
sequent to” English’s protected activity and that the
frequency and degree of mistreatment increased.

App. 9
“[T]he mere fact that some adverse action is taken af­
ter an employee engages in some protected activity will
not always be enough for a prima facie case.” Swanson
v. General Servs. Admin., 110 F.3d 1180,1188 n.3 (5th
Cir. 1997). Indeed, we look for close temporal proximity
when reviewing pleadings for sufficient allegations.
Compare Wooten, 788 F.3d at 499 (deeming complaint
plausible where all retaliatory acts occurred within
seven months of protected activity, after a decade of
unblemished employment), with Heggemeier v. Cald­
well County, Tex., 826 F.3d 861, 870 (5th Cir. 2016)
(deeming twenty-one-month lag too long for plausibil­
ity), and Leal u. McHugh, 731 F.3d 405, 417 (5th Cir.
2013) (three- to nine-year lag too long). By failing to
provide temporal detail, English left unused an im­
portant means of showing causation. His complaint
also lacked other allegations that might have made up
for the deficiency.9
This absence of detailed allegations is likewise fa­
tal to English’s retaliatory hostile work environment
claims. Because he has not plausibly alleged a causal
connection between his protected activity and the var­
ious misfortunes that befell him thereafter, we need
9 English’s allegation that Jordison did not place him on a
“performance improvement plan” as required by departmental
rules before she gave him a poor performance review might seem
like a departure from “typical policy and procedures,” which can
have causal significance according to Nowlin. See 33 F.3d at 508.
But without temporal detail, there is no way to tell whether this
alleged departure occurred before or after English’s protected ac­
tivity and thus no way to decide whether it lends plausibility to
English’s claims.

App. 10
not decide whether to join the rest of the circuit courts
in recognizing a retaliatory hostile work environment
claim. See Heath, 850 F.3d at 741 n.5.
Next, we read English’s complaint as attempting
to state a disparate-treatment claim based on sex and
age, given the allegations about the preferential treat­
ment enjoyed by a younger female coworker.10 At the
pleading stage, a plaintiff is not required to “make out
a prima facie case of discrimination in order to survive
a Rule 12(b)(6) motion to dismiss.” Raj, 714 F.3d at 331.
Nevertheless, the plaintiff’s allegations still must
plausibly address “the ultimate question in a Title VII
disparate treatment claim,” that is, “whether a defend­
ant took the adverse employment action against a
plaintiff because of [his or] her protected status.” Raj,
714 F.3d at 331 (quotation omitted). Likewise for the
ADEA. See Leal, 731 F.3d at 410-12.11
Much of what English identifies as preferential
treatment is not cognizable as an adverse employment
action. “Adverse employment actions are ultimate em­
ployment decisions such as hiring, firing, demoting,
promoting, granting leave, and compensating.” Stroy v.
10 The district court did not deal expressly with disparate
treatment.
11 Though English is a federal employee, the parties and the
district court did not address the difference between the causal
element of ADEA claims for federal employees versus private or
local-government employees. See Leal, 731 F.3d at 410-12 (con­
trasting the lesser showing required under 29 U.S.C. § 633a, con­
cerning federal employees, with “the more restrictive burden of
proof” under § 623(a), concerning non-federal employees). We ap­
ply Leal’s treatment of federal employees’ required showing here.

App. 11
Gibson on behalf of Dep’t of Vet. Affairs, 896 F.3d 693,
699 (5th Cir. 2018) (quotation omitted). “[A]n employ­
ment action that does not affect job duties, compensa­
tion, or benefits is not an adverse action.” Id. (quotation
omitted). Complaints that coworkers got to socialize
with higher-ups, for instance, do not count.
To the extent any of English’s claimed misfortunes
did “affect job duties, compensation, or benefits,” his
disparate-treatment theory has the same weakness as
his hostile work environment claims: a dearth of alle­
gations showing he was mistreated due to his sex or
age. That another employee was treated better and
given more opportunities does not become actionable
under federal law just because she was female or be­
cause she was younger. More is needed to raise Eng­
lish’s claims above a speculative level. Consequently,
English’s disparate-treatment claims do not warrant
reversing the district court and permitting this suit to
proceed.
Finally, we do not consider the issues raised in
English’s brief regarding the U.S. Attorney’s represen­
tation of the Secretary. “We consider issues raised for
the first time on appeal only in extraordinary in­
stances to avoid a miscarriage ofjustice.” United States
ex rel. Simoneaux v. E.I. duPont de Nemours & Co., 843
F.3d 1033, 1042 n.32 (5th Cir. 2016) (quotation omit­
ted). Nothing out of the ordinary is evident here.
For the foregoing reasons, the judgment of the dis­
trict court is AFFIRMED.

App. 12
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-50530
D.C. Docket No. 6:16-CV-306
TODD A. ENGLISH,
Plaintiff - Appellant
v.

SONNY PERDUE, Secretary, USDA,
Defendant - Appellee
Appeal from the United States District Court
for the Western District of Texas
Before HIGGINSON and WILLETT, Circuit Judges
and BROWN, District Judge*.
JUDGMENT
(Filed Jun. 19, 2019)
This cause was considered on the record on appeal
and the briefs on file.
It is ordered and adjudged that the judgment of
the District Court is affirmed.

* District Judge of the Northern District of Mississippi, sit­
ting by designation

App. 13
IT IS FURTHER ORDERED that each party bear
its own costs on appeal.
[SEAL]
Certified as a true copy and issued
as the mandate on Sep 16, 2019
Attest: /s/ Lyle W. Cayce
Clerk, U.S. Court of Appeals,
Fifth Circuit

App. 14
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
WACO DIVISION
TODD A ENGLISH,
Plaintiff,
v.

§
§
§
§

§ W-16-CV-00306-FM
SONNY PERDUE,
Secretary, U.S. Department f
§
of Agriculture,
Defendant.

§
§

ORDER DENYING AS MOOT MOTION TO
RECONSIDER ORDER AND MOTION TO DELAY
RESPONSES UNTIL APPEAL IS RULED UPON.
(Filed Jun. 4, 2018)
On this day, the court considered the “Motion to
Reconsider Order” (“Motion to Reconsider”) [ECF No.
59], filed May 23, 2018 by Todd A. English (“Plaintiff”)
and “Motion to Delay Responses Until Appeal Is Ruled
Upon” (“Motion to Delay”) [ECF No. 60], filed May 23,
2018 by Plaintiff. In his Motion to Reconsider, Plaintiff
asks this court to reconsider the court’s previous order
permitting Jon R. Ker (“Ker”) to withdraw as the attor­
ney of record for Plaintiff.1 The Motion to Delay

1 Mot. to Reconsider 1; “Order,” ECF No. 56, entered May 14,
2018.

App. 15
requests a “delay in responding until 10 days after the
appeal is ruled upon.”2
The Motion to Reconsider stems from a conflict in
the attorney-client relationship between Ker and
Plaintiff. The court will provide a brief background on
the issue of withdrawal in this case. On February 20,
2018, Ker filed a “Motion to Withdraw as Attorney of
Record,” wherein he sought to withdraw as counsel of
record on the following grounds: (1) There is a conflict
that “goes to the heart of the attorney/client relation­
ship, and continuing said relationship would violate
the attorney code of ethics”; (2) Plaintiff has failed to
pay for legal services rendered; and (3) Plaintiff has
threatened to file a complaint with the Texas State
Bar.3 Plaintiff filed in opposition,4 and the Magistrate
Judge subsequently entered a text order denying the
motion to withdraw.
On March 20, 2018, Ker filed once again to with­
draw as the attorney of record.5 On March 29,2018, the
Magistrate Judge entered a text order denying Ker’s
request. Ker requested for the third time on April 24,
2018 to withdraw as attorney of record.6 On May 14,
2018, the Magistrate Judge issued an order permitting
2 Mot. to Delay 1.
3 Mot. to Withdraw as Attorney of Record 1.
4 “
Motion to Deny Motion to Withdraw as Attorney of Rec­
ord,” ECF No. 32, filed Feb. 22, 2018.
5 See generally “Movant’s First Amended Motion to With­
draw as Attorney of Record,” ECF No. 42.
6 <
‘Supplemental Motion to Withdraw as Attorney of Record,”
ECF No. 48, filed Apr. 24, 2018.

App. 16
Ker to withdraw as counsel of record, explaining that
a sealed affidavit submitted by the attorney “estab­
lish [ed] that the attorney-client relationship ha[d] ir­
retrievably broken down.”7
Unrelated to the issue of withdrawal, this court
entered its final disposition of the “Defendant’s Motion
to Dismiss for Failure to State a Claim Upon Which
Relief Can Be Granted”8 on May 23, 2018.9 In the “Or­
der Adopting in Part and Rejecting in Part the Report
and Recommendation of the United States Magistrate
Judge and Closing Case” (“Order”),10 the court dis­
missed Plaintiff’s suit in its entirety.11 Specifically, the
court held that Plaintiff’s complaint failed to state a
claim of hostile work environment on the bases of sex
and age under Title VII, a claim of retaliation on the
basis of engaging in protected activity under Title VII,
and a claim of retaliatory hostile work environment on
the basis of engaging in protected activity under Title
VII.12 The court therefore granted the Defendant’s mo­
tion to dismiss.13 In other words, the case is now
closed.14

7 «

Order,” ECF No. 56, entered May 14, 2018.
8 ECF No. 24, filed Oct. 13, 2017.
9 ECF No. 58, entered May 23, 2018.
10 Id.
11 See id.
12 Ord. 24.
13 Id.
14 See id.

App. 17
As this case has been terminated, the conflict over
Ker’s withdrawal is no longer at issue. Consequently,
the court lacks the power to consider the Motion to Re­
consider and the Motion to Delay. Accordingly, the
court DENIES AS MOOT the “Motion to Reconsider
Order” (“Motion to Reconsider”) [ECF No. 59] and the
“Motion to Delay Responses Until Appeal Is Ruled
Upon” (“Motion to Delay”) [ECF No. 60].
SO ORDERED.
SIGNED this 4 day of June, 2018
/s/ Frank Montalvo
FRANK MONTALVO
UNITED STATES
DISTRICT JUDGE

App. 18
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
WACO DIVISION
TODD A. ENGLISH,
Plaintiff,
v.
SONNY PERDUE,
Secretary,
U.S. Department of
Agriculture;
Defendant.

§
§
§
§

§ W-16-CV-00306-FM
§
§
§
§
§

ORDER ADOPTING IN PART AND
REJECTING IN PART THE REPORT
AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE
JUDGE AND CLOSING CASE
(Filed May 23, 2018)
On this day, the court considered the “Report and
Recommendation of the United States Magistrate
Judge” (“Report and Recommendation”), entered March
2, 2018 by United States Magistrate Judge Jeffrey
C. Manske (“Magistrate Judge”) and “Defendant’s
Objection to the Report & Recommendation of the
United States Magistrate Judge” (“Objection”) [ECF
No. 41], filed March 16, 2018 by Sonny Perdue, in his
official capacity as Secretary of the Department of

App. 19
Agriculture1 (“Defendant”). Plaintiff Todd A. English
(“Plaintiff”) did not file a response. The deadline has
passed, and the court will no longer await a response
to the Objection.2 In conjunction, the court considered
“Defendant’s Motion to Dismiss for Failure to State a
Claim Upon Which Relief Can Be Granted” (“Motion”)
[ECF No. 24], filed October 13, 2017 by Defendant,
“Plaintiff’s Memorandum in Response to Defendant’s
Motion to Dismiss” (“Response”) [ECF No. 25], filed Oc­
tober 25, 2017 by Todd A. English (“Plaintiff”), and
“Defendant’s Reply in Support of His Motion to Dis­
miss for Failure to State a Claim Upon Which Relief
Can be Granted” (“Reply”) [ECF No. 27], filed Novem­
ber 11, 2017 by Defendant. After due consideration of
the Report and Recommendation, Objection, Motion,
Response, Reply, and the applicable law, the court
ADOPTS IN PART AND REJECTS IN PART the
Report and Recommendation and GRANTS the Mo­
tion for the reasons discussed below.

i “ Complaint”

(“Original Complaint”), ECF No. 1. The original
complaint names the then Secretary of the Department of Agri­
culture, Thomas J. Vilsack, as the named defendant, but the cur­
rent briefing names the current Secretary of Department of
Agriculture, Sonny Perdue, as the defendant.
2 See Fed. R. Civ. P. 72(b)(2) (“A party may respond to an­
other party’s objections within 14 days after being served with a
copy.”). The Objection was filed on March 16, 2018, and Plaintiff
therefore had until March 30, 2018 to file a response.

App. 20

I.

BACKGROUND
A. Factual Background

This suit arises out of alleged unlawful employ­
ment practices and acts by the Secretary of the Depart­
ment of Agriculture in regard to Plaintiff, a Caucasian
male residing in the County of Bell in Texas.3 On July
29, 2017, Plaintiff filed suit, asserting Title VII claims
on the bases of sex and age, as well as a Title VII claim
on the basis of engaging in protected activity.4
Plaintiff asserts that he performed his job in a
satisfactory manner ever since he began working as a
Housing Technician (GS-1101-07) for the Rural Devel­
opment, Single Family Housing Division in Temple,
Texas, and later the Community Programs division in
August 2009.5 Plaintiff contends that his supervisor
Theresa Jordison, the Housing Program Director, and
Francisco “Paco” Valenin Jr., the Texas State Director,
created, allowed, and encouraged a hostile work envi­
ronment against Plaintiff on account of his sex and
age.6 Plaintiff further adds that he was subject to
retaliatory treatment for pursuing a claim through
the Equal Employment Opportunity Commission
(“EEOC”) complaint process.7 Plaintiff’s grievances
against Jordison and Valenin include: (1) referring to
‘Amended Complaint” (“Amended Complaint”) ^ 1, 2 1 4,
ECF No. 17, filed July 13, 2017.
4 Id. at 1 6.
5 Id. at 'll 5.
Id.
7 Id.
3 <

App. 21
Plaintiff as a “dumb shit,” (2) falsely accusing him of
acts he did not commit, threatening termination of his
employment, (3) giving him unsatisfactory perfor­
mance reviews which eliminated his chances of being
promoted, (4) denied leave requests without justifica­
tion, subjecting him to an unreasonable investigation,
and (5) placing him on administrative leave for ten
weeks while the investigation was conducted, amongst
other allegations.8
Plaintiff seeks compensation for lost wages and
benefits, reasonable compensatory damages, and dam­
ages for physical illness, severe mental anguish, and
emotional distress.9 Plaintiff also states that he ex­
hausted his administrative remedies by filing three
written Charges of Discrimination with the Equal Em­
ployment Opportunity Commission (“EEOC”) of the
United States Department of Agriculture, and that
Plaintiff’s amended complaint was filed within ninety
days of receipt of the final agency decision.10
B. Procedural Background
Plaintiff filed this suit on July 29, 2016.11 Plaintiff
filed his “Amended Complaint” (“Amended Complaint”)12
on July 13, 2017.13 On October 13, 2017, Defendant
8 Id. at 2-4, n 8, 9, 12 & 13, 6-7 f 21.
9 Am. Compl. 8 it 23.
10 Id. at 8 it 24.
11 See generally Orig. Compl.
12 ECF No. 17.
13 See generally id.

App. 22
filed “Defendant’s Motion to Dismiss for Failure to
State a Claim Upon Which Relief Can Be Granted”14
pursuant to Federal Rule of Civil Procedure 12(b)(6).15
After consideration of the Motion, Response, Reply, and
the applicable law, the Magistrate Judge filed the Re­
port and Recommendation regarding the disposition
on the Motion on March 2, 2018.16 Defendant subse­
quently objected to the Report and Recommendation in
accordance with 28 U.S.C. § 636(b)(1)(C) and Federal
Rule of Civil Procedure 72(b).17
On April 24, 2018, Plaintiff filed a “Second
Amended Complaint” (“Second Amended Complaint”)18
without first requesting leave to file an amended com­
plaint. Shortly thereafter on May 16, 2018, Defendant
filed “Defendant’s Motion to Dismiss Plaintiff’s Second
Amended Complaint for Failure to State a Claim Upon
Which Relief Can Be Granted,”19 requesting the court
dismiss the Second Amended Complaint as well.20
C. The Magistrate Judge’s Recommendation
The Magistrate Judge recommends denying the
motion, concluding that Plaintiff stated enough factual
assertions to plausibly state a claim for relief under
14
15
16
17
18
19
20

ECF No. 24.
See generally id.
See generally Rep. & Rec.
See generally Obj.
ECF No. 47.
ECF No. 50.
See generally id.

App. 23
Title VII on the basis of sex discrimination.21 The Mag­
istrate Judge did, however, reject Plaintiff’s Title VII
claim for age discrimination. Concerning his retalia­
tion claim on the basis of engaging in protected activ­
ity, the Magistrate Judge concluded that the Amended
Complaint adequately states a claim for relief, but
noted that Plaintiff “appear [s] to conflate claims for
discriminatory work environment, retaliatory work
environment, and retaliatory hostile work environ­
ment.”22 Although the Magistrate Judge advises the
denial of the Motion, he recommends the court order
Plaintiff to replead his complaint.23
II.

APPLICABLE LAW
A. Review of a Magistrate Judge’s Report and
Recommendation

Any party may contest the Magistrate Judge’s
findings by filing written objections within fourteen
days of being served with a copy of the Report and Rec­
ommendation.24 The objections must specifically iden­
tify those findings or recommendations that the party
wishes to have the district court consider.25 A district
court need not consider “[f]rivolous, conclusive, or

21 Rep. & Rec. 8.
22 Id. at 11.
23 Id. at 12.
24 28 U.S.C. § 636(b)(1)(C).
25 Thomas v. Arn, 474 U.S. 140, 151, 106 S.Ct. 466, 88
L.Ed.2d 435 (1985).

App. 24
general objections.”26 The court must conduct a de novo
review of any of the Magistrate Judge’s conclusions to
which a party has specifically objected.27 On the other
hand, findings to which no specific objections are made
do not require de novo review; the court need only de­
termine whether the Report and Recommendation is
clearly erroneous or contrary to law.28
B. Federal Rule of Civil Procedure 12(b)(6)
Federal Rule of Civil Procedure Rule 12(b)(6) al­
lows dismissal of a complaint for “failure to state a
claim for which relief can be granted.”29 “The central
issue is whether, in the light most favorable to the Pe­
titioner, the complaint states a valid claim for relief.”30
To survive a motion to dismiss, a petitioner must plead
“enough facts to state a claim to relief that is plausible

26 Battle v. U.S. Parole Comm’n, 834 F.2d 419, 421 (5th Cir.
1987) (quoting Nettles v. Wainwright, 677 F.2d 404, 410 n. 8 (5th
Cir. 1982), overruled on other grounds by Douglass v. United Servs.
Auto. Ass’n, 79 F.3d 1415 (5th Cir. 1996)).
27 See 28 U.S.C. § 636(b)(1)(C) (“A judge of the court shall
make a de novo determination of those portions of the report or
specified proposed findings or recommendations to which objec­
tion is made”).
28 United States v. Wilson, 864 F.2d 1219, 1221 (5th Cir.
1989).
29
Fed. R. Civ. P. 12(b)(6).
30 Great Plains Trust Co. v. Morgan Stanley Dean Witter &
Co., 313 F.3d 305, 313 (5th Cir. 2002) (internal quotation marks
and citation omitted); see also In re Katrina Canal Breaches Litig.,
495 F.3d 191, 205 (5th Cir. 2007)).

App. 25
on its face.”31 “The plausibility standard is not akin to
a ‘probability requirement,’ but it asks for more than a
sheer possibility that a Respondent has acted unlaw­
fully. »32 « [Flacial plausibility” exists “when the Petitioner pleads factual content that allows the court to
draw the reasonable inference that the Respondent is
liable for the misconduct alleged.”33 A complaint is not
required to set out “detailed factual allegations,” but it
must provide “more than labels and conclusions, and a
formulaic recitation of the elements of a cause of ac­
tion.”34 Although the court must accept well-pleaded
allegations in a complaint as true, it does not afford
conclusory allegations similar treatment.35
C. Title VII of the Civil Rights Act of 1964
Title VII of the Civil Rights Act of 1964 makes it
“an unlawful employment practice for an employer . . .
to discriminate against any individual with respect to
his compensation, terms, conditions, or privileges of
employment, because of such individual’s race, color,
religion, sex, or national origin.”36 A Title VII complaint
need not contain greater particularity, as this would
too narrowly constrict the role of the pleadings; rather,
31 BellAtl. Corp. v. Twombly, 550 U.S. 544, 570 (2007).
32 Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
33 Id. (citing Twombly, 550 U.S. at 556).
34 Twombly, 550 U.S. at 555.
35 See Kaiser Aluminum & Chem. Sales, Inc., 677 F.2d 1045,
1050 (5th Cir. 1982) (citing Associated Builders, Inc. v. Ala. Power
Co., 505 F.2d 97, 100 (5th Cir. 1974)).
36 42 U.S.C. § 2000e-2(a)(l).

App. 26
the ordinary rules for assessing the sufficiency of a
complaint apply to Title VII actions.37
III. DISCUSSION
Defendant takes issue with a number of conclusions
by the Magistrate Judge, contending that: (1) Plaintiff
has not provided non-conclusory factual assertions
that would show the harassment he alleges was based
on his sex and (2) Plaintiff has failed to plead specific,
non-conclusory factual assertions that suggest a
causal link between his participation in a protected ac­
tivity and an adverse employment action or harass­
ment.38
Consequently, the court first engages in a de novo
review of the Magistrate Judge’s finding that Plain­
tiff’s Amended Complaint provides sufficient factual
contentions to state a Title VII sex discrimination
claim of hostile work environment. Second, the court
will conduct a de novo review with respect to the Mag­
istrate Judge’s conclusion that Plaintiff adequately al­
leged factual contentions to support a Title VII claim
for either retaliation or retaliatory hostile work envi­
ronment on the basis of engaging in protected activity.
The remaining findings by the Magistrate Judge are
reviewed for plain error.

37 Swierkiewicz v. Sorema N.A., 534 U.S. 506, 511 (2002).
38 Obj. 2.

App. 27
A. Hostile Work Environment
1. Age Discrimination Under Title VII
a. The Magistrate Judge's Recommen­
dation
The Magistrate Judge concluded that Plaintiff
failed to adequately plead a claim for age discrimina­
tion under Title VII.39 The Magistrate Judge high­
lighted two critical deficiencies in Plaintiff’s Amended
Complaint: (1) Plaintiff did not plead specific, age-re­
lated facts and (2) Plaintiff did not sue under the ap­
propriate act - the Age Discrimination in Employment
Act (“ADEA”).40
b. Plain Error Review
As neither party objects to the Magistrate Judge’s
conclusion, this court reviews for plain error. After due
consideration, the court finds no plain error with the
Magistrate Judge’s finding that Plaintiff may not pur­
sue a claim for age discrimination under Title VII. Ac­
cordingly, the court DISMISSES this claim and
ADOPTS this section of the Report and Recommenda­
tion as the opinion of the court.
(

39 See Rep. & Rec. 7 (“If Plaintiff wishes to show the hostile
or retaliatory work environment he was subjected to was the re­
sult of age discrimination, a Title VII suit is the incorrect cause of
action. Based on plaintiffs allegation, the Age Discrimination in
Employment Act appears to be a more viable vehicle.”).
40 Id.

App. 28
2. Sex Discrimination Under Title VII
a. The Magistrate Judge’s Recommen­
dation
The Magistrate Judge concluded that Plaintiff as­
serted enough factual contentions to state a plausible
claim to relief for sex discrimination in violation of Ti­
tle VII.41 In support of this finding, the Magistrate
Judge pointed to a number of grievances raised by
Plaintiff, including: “unjustified denials of leave re­
quests, a higher level of scrutiny than his similarly sit­
uated coworkers, having female coworkers who had no
supervisory control over him monitor his coming and
going and report them to Jordison, changing his status
from leave to AWOL, openly mocking him in the work­
place, being told that he should ‘find another job’ when
he complained of discriminatory treatment, and at
that one point he was banned from entering the east
side of the State Office building which detracted from
his ability to do his job. »42
b. Objections
Defendant takes issue with the Magistrate
Judge’s conclusion, arguing that Plaintiff has failed to
assert specific, non-conclusory factual contentions that
suggest the harassment was on the basis of his sex.43

41 Id.
42 Rep. & Rec. 8.
43 Obj. 2.

App. 29
As Defendant objects to the Magistrate Judge’s recom­
mendation, the court reviews this issue de novo.
c. Analysis
Defendant correctly points out that Plaintiff is re­
quired to plead facts that would give rise to a reasona­
ble inference of the causal link between the alleged
conduct and his sex.44 Under Title VII, a “hostile work
environment exists when the workplace is permeated
with discriminatory intimidation, ridicule, and insult,
that is sufficiently severe or pervasive to alter the con­
ditions of the victim’s employment and create an abu­
sive work environment.”45 To state a case of hostile
work environment under Title VII, Plaintiff must es­
tablish that: (1) he is a member of a protected group;
(2) he was subjected to unwelcome harassment; (3) the
harassment was based on his membership in a pro­
tected class; (4) the harassment affected a term, condi­
tion, or privilege of employment; and (5) his employer
knew or should have known of the harassment and
failed to take prompt remedial action.46 Plaintiff is re­
quired to “plead sufficient facts on all of the ultimate
elements ... to make his case plausible. »47
44 Id. at 6.
45 Stewart v. Miss. Transp. Comm’n, 586 F.3d 321, 328 (5th
Cir. 2009) (internal quotation marks omitted).
46 Ramsey v. Henderson, 286 F.3d 264, 268 (5th Cir. 2002).
Defendant correctly points out [sic]
47 See Chhim v. Univ. of Tex. at Austin, 836 F.3d 467, 470
(5th Cir. 2016) (in a disparate treatment claim). Plaintiff has not
clearly pleaded whether he seeks relief based on direct evidence

App. 30
Under Federal Rule of Civil Procedure 8(a)(2), a
plaintiff must provide “a short and plain statement of
the claim showing that the pleader is entitled to re­
lief.”48 In Ashcroft v. Iqbal,49 the Court laid out the
pleading requirements of Rule 8:
[T]he pleading standard Rule 8 announces
does not require “detailed factual allegations,”
but it demands more than an unadorned, thedefendant-unlawfully-harmed-me accusation.
A pleading that offers “labels and conclusions”
or “a formulaic recitation of the elements of a
cause of action will not do.” Nor does a com­
plaint suffice if it tenders “naked assertion [s] ”
devoid of “further factual enhancement.”50
The Court’s decision in Twombly, as reiterated in Iq­
bal, crafted a two-pronged approach to evaluate the
sufficiency of a complaint.51 To survive a motion to dis­
miss, Plaintiff’s complaint “must contain sufficient fac­
tual matter, accepted as true, to state a claim to relief
that is plausible on its face.”52 A claim is plausible
where the “plaintiff pleads factual content that allows

or disparate treatment. However, at this stage of the litigation,
such a distinction is not critical. Plaintiff is only required to plead
facts giving rise to a plausible claim.
48 Fed. R. Civ. P. 8(a)(2); Ashcroft v. Iqbal, 556 U.S. 662,67778 (2009).
49 556 U.S. 662 (2009).
50 Id. at 678 (internal citations omitted).
51 Id. at 678.
52 Id. (citing 550 U.S. at 570) (internal quotation marks omit­
ted).

App. 31
the court to draw the reasonable inference that the de­
fendant is liable for the misconduct alleged.”53
First, Plaintiff’s complaint fails because it relies
on conclusory allegations rather than factual conten­
tions. The Report and Recommendation erroneously
concludes that Plaintiff stated a claim because he
listed a number of hostile actions and alleged they
were “due to his sex.”54 However, he pleads no facts
linking the hostile actions taken by his supervisor, co­
workers, and the State Director to his sex. Throughout
the Amended Complaint, Plaintiff asserted that hostile
actions were taken “on account of Plaintiff’s sex
(male),” which is a mere recitation of the required
causal element.55 This is not a factual contention and
is only a conclusory subjective belief.
Nor does Plaintiff’s contention that he received
poor evaluations on account of his sex pass muster.
Plaintiff asserts that these poor evaluations “assured
that female employees under 40 years of age favored
by Jordison would be selected for promotion rather
than Plaintiff.”56 This is a subjective belief that Jord­
ison was motivated by discriminatory animus. It is
conclusory and speculative. An allegation that consists

53
54
55
56

Id.
Rep. & Rec. 8.
Am. Compl. 2.
Id. at 3.

App. 32
of “threadbare recitals of the elements, supported by
mere conclusory statements” is not sufficient.57
Second, Plaintiff’s complaint fails as he has not
stated a plausible claim for relief. Plaintiff charges
that female coworkers with “no supervisory control”
monitored various aspects of Plaintiff’s employment.58
As a preliminary matter, this allegation is broad and
vague.
However, the crux of the matter is that it fails to
allege causal connection. Indeed, it fails to give rise to
a reasonable inference that this alleged monitoring
was due to his sex, and not for any other reason. The
mere fact that co-workers, who were women, were as­
signed to monitor him does not show that he was sub­
ject to unfavorable treatment based on his sex. While
this court cannot speculate the actual cause of the
monitoring, it is equally possible that the monitoring
was due to non-discriminatory reasons. It is feasible
that Plaintiff was monitored more closely due to a dis­
criminatory animus, but feasible does not satisfy the
requisite pleading standards.
Plaintiff lists a number of hostile actions against
him, including one instance in which a female co­
worker allegedly called him a “dumb shit” and stated
that she would like to see a bullet in his head.59 While
this inappropriate comment is certainly of an unkind,
67 See Iqbal, 556 U.S. 662, 679 (2009) (citing Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 555-57 (2007)).
58 Am. Compl. 4.
59
Id. at 7 1 21(o).

App. 33
hostile nature, it does not suggest that it occurred be­
cause of his sex. This is the only comment alleged by
Plaintiff. A single comment on its own does not create
a reasonable inference of a causal link between the
hostile comment and motivation based on gender ani­
mus.
At times, Plaintiff’s complaint rests on allegations
of preferential treatment of female employees.60 These
accounts of preferential treatment mainly involve
Amanda Ayers, a female coworker under thirty years
old.61 Plaintiff specifically asserts that his supervisor
favored Ayers “in an effort to groom Ayers for promo­
tion” and thus gave her special assignments and oppor­
tunities, including a specialist position, committee
assignments beneficial for promotion, positive evalua­
tions, assigning tasks “of a higher level outside the
scope of her employment.”62 These allegations fail to
raise a reasonable inference that such preferential
treatment was because of her gender. He does not pro­
vide any other accounts of co-workers receiving prefer­
ential treatment or other interactions that plausibly
suggest preferential treatment based on sex; rather, he
makes broad, conclusory statements.63 The allegations
60

See Am. Compl. 3 1 12, 4-5 1 14, 5-6 1 20
61 See e.g., id. at 4 1 14, 5 11 15,18, 20.
62 Id. at 4-5 1 14.
63 See e.g., id. at 5 1 16 (“Jordison cultivated a pervasive at­
titude in her office which favored female employees as demon­
strated by only male employees under her supervision receiving
‘Does Not Meet’ performance appraisals”); id. at 5-6 1 20 (“The
State Director gave discriminatory and preferential treatment to
the younger female employees within the Single Family Housing

App. 34
fail to make a connection between the preferential
treatment and sex.
In conclusion, while the Amended Complaint
paints a picture of poor treatment by his supervisor
and coworkers, Plaintiff’s allegations are non-specific,
vague, and contain numerous conclusory statements.
Further, the complaint’s allegations fall short of a rea­
sonable inference that the hostile conduct was based
on sex. While it is conceivable that harassment oc­
curred as a result of Plaintiff’s sex, he has failed to pro­
vide factual content that !“nudg[es]’ his claim of
purposeful discrimination ‘across the line from con­
ceivable to plausible.’”64 Consequently, Plaintiff has
failed “to state a claim that is plausible on its face.”65
The court DISMISSES Plaintiff’s Title VII claim of
hostile work environment on the basis of sex and RE­
JECTS the Report and Recommendation with respect
to the instant claim.

Division including Amanda Ayers by taking them on out-of-town
trips associated with the Agency and socializing with them to the
exclusion of Plaintiff.”).
64 Iqbal, 556 U.S. 662, 683 (2009).
65 Id. at 678 (citing 550 U.S. at 570) (internal quotation
marks omitted).

App. 35
B. Retaliation and Retaliatory Hostile Work
Environment
1. The Magistrate Judge’s Recommenda­
tion
The Magistrate Judge recommends this court
deny the Motion, explaining that Plaintiff has success­
fully stated a claim for retaliation on the basis of en­
gaging in protected activity.66 First, the Magistrate
Judge concluded that Plaintiff had properly alleged
that he engaged in protected activity, consisting of a
charge of discrimination and a hotline complaint
with the Office of the Inspector General.67 Second, the
Magistrate Judge found that Plaintiff had adequately
alleged an adverse employment action.68 The Magis­
trate Judge reasoned that while disciplinary warnings
or negative performance evaluations are not adverse
employment actions for purposes of Title VII, their in­
terference with his ability to be promoted may never­
theless constitute an adverse employment action. 69
Further, the Magistrate Judge pointed to Plaintiff’s
denied leave requests, which are actionable employ­
ment decisions.70
With regard to causality between the protected ac­
tivity and adverse employment action or harassment,
the Magistrate Judge found that Plaintiff sufficiently
66

Rep. & Rec. 11.
67 Id. at 9-10.
68
Id. at 10.
69 Id.
70 Id.

App. 36
alleged a causal link between the two.71 In support of
this conclusion, the Magistrate Judge pointed to alle­
gations that: (1) Jordison had repeatedly singled him
out for ridicule before his coworkers after the filing of
his EEOC complaint, (2) the State Director ridiculed
him during staff meetings after his hotline complaint,
(3) denied leave requests, (4) Jordison told Plaintiff
that he should find another job after he complained of
unequal treatment, and (5) Jordison’s failure to use a
performance improvement plan before downgrading
his performance.72 The Magistrate Judge therefore
concluded that Plaintiff’s Amended Complaint ade­
quately states a claim.73
2. Objections
Defendant objects to the Magistrate Judge’s Find­
ings, arguing that it is not clear whether Plaintiff as­
serts a claim for relief of retaliation or whether
Plaintiff asserts a claim for relief of retaliatory hostile
work environment.74 Defendant argues that, either
way, Plaintiff has failed to allege facts that would give
rise to a reasonable inference of the causal link be­
tween the protected activity and the adverse employ­
ment action or hostile work environment.75

71
72
73
74
75

Id. at 11.
Rep. & Rec. 11.
Id.
Obj. 9.
Id.

App. 37
3. Analysis
As a preliminary matter, the court notes that the
Amended Complaint does not clearly state which claim
for relief Plaintiff seeks. Plaintiff may be pursuing a
claim of retaliation, but it is also possible that Plaintiff
is attempting to assert a claim for retaliatory hostile
work environment. Regardless, the court considers
whether Plaintiff has stated a plausible claim for relief
for either.
a. Retaliation
To assert a retaliation claim, Plaintiff must plead
that: (1) he engaged in protected activity; (2) an ad­
verse employment action occurred; and (3) a causal
link exists between the protected activity and the ad­
verse employment action.76 To state a Title VII retalia­
tion claim, Plaintiff must establish a causal link
between the protected activity and the adverse em­
ployment action and harassment.77
Defendant does not dispute that Plaintiff engaged
in protected activity, consisting of the filing of the
EEOC claim and the hotline complaint.78 The filing of
an EEOC complaint is protected activity within the
meaning of Title VII.79 Further, Defendant does not
76 Turner v. Baylor Richardson Med. Ctr., 476 F.3d 337, 348
(5th Cir. 2007).
77 Id.
78 See id. at 12.
79 Harvill v. Westward Comm’ns., L.L.C., 433 F.3d 429, 439
(5th Cir. 2005).

App. 38
object to the Magistrate Judge’s finding that Plaintiff
has pleaded an adverse employment action. Defend­
ant’s Objection rests upon the third prong. Defendant
asserts that Plaintiff’s Amended Complaint lacks the
requisite causal link between the protected activity
and the alleged adverse employment actions and harassments.80
The only relevant allegation to causation is Plain­
tiff’s contention that the State Director “undertook
acts against Plaintiff subsequent to Plaintiff filing his
Charge of Discrimination and after Plaintiff made a di­
rect complaint to the [State Director], ”81 The court
finds the use of the word “subsequent” troubling and
considers whether the use of the word “subsequent”
and the following list of hostile acts satisfy the requi­
site pleading standards.
The court will delve into a brief discussion of the
requisite pleading requirements as relevant to this
case. Federal Rule of Civil Procedure 8(a)(2) provides
that “[a] pleading that states a claim must contain a
short and plain statement of the claim showing that
the pleader is entitled to relief.” Modem pleading re­
quirements have their roots in Bell Atlantic Corpora­
tion v. Twombly82 and Ashcroft v. Iqbal.88

80

See Obj. 12-13.
81 Am. Compl. 6 (emphasis added).
82 550 U.S. 544 (2007).
83 566 U.S. 662 (2009).

/

App. 39
i.

Bell Atlantic Corp. v. Twombly

Twombly arose out of AT&T’s divestiture of its lo­
cal telephone business in 1984, resulting in a system
of regional service monopolies.84 Following several
mergers between the remaining companies, Congress
enacted the Telecommunications Act of 1996 with­
drawing the approval of the local telephone companies’
monopolies with the purpose of facilitating market en­
try.85 Plaintiffs William Twombly and Lawrence Mar­
cus represented a class action on behalf of telephone
consumers, asserting that the phone companies were
unlawfully conspiring in violation of § 1 of the Sher­
man Act.86 The complaint alleged that the telephone
companies had: (1) “engaged in parallel conduct in
their respective service areas to inhibit the growth of
upstart [companies]” and (2) refrained from competing
against one another.87
The Court held that the complaint failed to plead
a plausible claim, pointing to: (1) the lack of direct
proof of agreement88; (2) refusal to compete is not un­
lawful89; (3) the history of the telecommunications in­
dustry, where regulation monopoly was the norm,
among other factors.90 The Court noted that the
84

Bell Atl. Corp. v. Twombly, 550 U.S. 544, 549 (2007).
85 Id. at 549.
86
Id. at 550.
87 Id. at 550.
88
Id. at 564.
89 Id. at 553-54.
90
Twombly, 550 U.S. at 567-68.

App. 40
complaint even suggested that it was, in fact, in the
telephone companies’ best interest to maintain their
geographic dominance.91 The Court explained that
“sparse competition among large firms dominating
separate geographical segments of the market could
very well signify illegal agreement, but here we have
an obvious alternative explanation.”92 Accordingly, the
Court dismissed the complaint, explaining that “the
plaintiffs here have not nudged their claims across the
line from conceivable to plausible. ”93
ii.

Ashcroft v. Iqbal

In Iqbal, the plaintiff, a native of Pakistan and a
Muslim, alleged that the Attorney General and Direc­
tor of the Federal Bureau of investigations authorized,
and had knowledge of, an unconstitutional policy im­
prisoning the plaintiff on the bases of race, religion,
and national origin.94 Like Twombly, the court’s analy­
sis included the consideration of an alternative expla­
nation, specifically “that the Nation’s top law
enforcement officers, in the aftermath of a devastat­
ing terrorist attack, sought to keep suspected terror­
ists in the most secure conditions available until the
suspects could be cleared of terrorist activity.”95 While
the complaint’s allegations were consistent with
91 Id. at 568.
92 Id.
93
Id. at 570.
94 Ashcroft v. Iqbal, 556 U.S. 662, 666 (2009).
95 Id. at 683.

App. 41
discriminatory treatment based on race, religion, or
national origin, there were “more likely explanations”
and thus did not move the complaint from conceivable
to “plausible. ”96
Hi. Analysis
Twombly and Iqbal are instructive in two ways
relevant to this court’s analysis. First, they stress the
necessity of a “context-specific” analysis, and that the
judge must “draw on its judicial experience and common sense. ”97 Second, they highlight that equally likely
alternative explanations are important to the contextspecific analysis by the court. In this case, while Plain­
tiff cannot peer into the minds of his supervisor and
the State Director, Plaintiff is required nevertheless to
allege facts that suggest it is more than mere conjec­
ture that the alleged adverse employment actions and
harassment resulted from engaging in protected activ­
ity.
In Title VII claims, temporal proximity can prove
to be a powerful tool in establishing causality. Courts
generally look to the timing between an employee’s
protected activity and the adverse action against him
or her.98 The Supreme Court has explained that
96

Id. at 681.
97 Id. at 679.
98 See Clark Cty. Sch. Dist. v. Breeden, 532 U.S. 268, 273
(2001) (“[CJases that accept mere temporal proximity ... as suffi­
cient evidence of causality to establish a prima facie case uni­
formly hold that the temporal proximity must be ‘very close.’ ”);
Swanson v. General Services Admin., 110 F.3d 1180, 1188 (5th

App. 42
“[CJases that accept mere temporal proximity ... as
sufficient evidence of causality to establish a prima fa­
cie case uniformly hold that the temporal proximity
must be 'very close.' Here, while Plaintiff is certainly
not required to establish a prima facie case at this
stage of litigation, Plaintiff must allege enough facts
for this court to determine whether his claim is plausi­
ble.
Plaintiff’s failure to detail the timing of the rele­
vant events beyond “subsequent” is not sufficient. In
his Amended Complaint, Plaintiff enumerated fifteen
alleged hostile actions taken against him “subsequent”
to the filing of his EEOC complaint and after a direct
complaint to the State Director.100 Plaintiff has pro­
vided no timeline of the alleged adverse employment
actions or the alleged hostile actions in relation to the
filing of the EEOC complaint or hotline complaint. It is
impossible to know how close in time or removed in
time these acts occurred. It is quite possible that some
are a continuation of the conduct that occurred prior to
the filing of the complaint. It is also possible that some
actions occurred more than a year after, suggesting
less connection between the protected activity and the
hostile acts. In fact, the Amended Complaint as a
Cir. 1997) (“Close timing between an employee’s protected activ­
ity and an adverse action against him may provide the ‘causal
connection’ required to make out a prima facie case of retalia­
tion.”).
99 Breeden, 532 U.S. at 273 (describing temporal proximity in
the summary judgment context) (emphasis added).
100 See Am. Compl. 6 1 21.

App. 43
whole is devoid of allegations describing the timing of
events. It merely lists the dates that Final Agency De­
cisions were “received” by Plaintiff101 and the time of
his employment with the USDA: a time period span­
ning from August 2009 to the present.102 This is insuf­
ficient to survive a motion to dismiss.
Plaintiff’s Amended Complaint revolves around
hostile treatment at his workplace, but it is, unfortu­
nately, not uncommon for people to experience poor
treatment in the workplace. Like Twombly and Iqbal,
it is equally likely that an alternative explanation, one
that is lawful but unkind, exists for the charged hostile
acts. The fact that hostile treatment occurred in this
case does not necessarily lend itself to a reasonable in­
ference that the hostile activity occurred because of the
protected activity. For example, it is equally likely that
Plaintiff was not invited to the 2016 Office Christmas
Party for a number of other reasons and not because
Plaintiff filed the complaints.103 Plaintiff has not
“nudged” his claim “across the line from conceivable to
plausible,”104 and therefore his claim of retaliation
must be dismissed.
b. Retaliatory Hostile Work Environment
Although the Fifth Circuit has explicitly “not rec­
ognized a retaliatory hostile work environment cause
101
102
103
104

Id. at 1 ^1 2.
Id. at 2 5.
See id. at 7 1 21(1).
See BellAtl. Corp. v. Twombly, 550 U.S. 544, 547 (2007).

App. 44
of action,”105 it has not foreclosed such a claim either.
The Fifth Circuit has evaded the question by deciding
cases on other grounds, typically concluding that the
claimant had failed to establish a prima facie case of
either retaliation or hostile work environment.106 The
current ambiguity in Fifth Circuit jurisprudence does
not foreclose this court’s consideration of Plaintiff’s
claim. A number of our sister courts have considered
such a claim, and this court follows suit.107 While the
105

Heath v. Bd of Supervisors for S. Univ. and Agric. and
Mech. College, 850 F.3d 731, 741 n.5 (5th Cir. 2017). Twelve cir­
cuits have recognized such a cause of action. Id. at 741 n.5.
106 See Tejada v. Travis Ass’n for the Blind, 617 Fed. Appx.
325, 328 (5th Cir. 2015); Fallon v. Potter, 277 Fed. Appx. 422, 424
n.3, 426 (5th Cir. 2008) (per curiam) (declining to decide whether
retaliatory hostile work environment was cognizable, explaining
that plaintiff did not make out a prima facie case as Plaintiff
failed to establish the causal link between the protected activity
and the alleged retaliatory conduct); Bryan v. Chertoff, 217 Fed.
Appx. 289, 293 (5th Cir. 2007) (“We need not decide whether to
recognize a retaliatory hostile work environment claim” as
“Bryan cannot establish a prima facie case of hostile work envi­
ronment.”).
107 See, eg., McCorvey v. Univ. of Tex. Health Sci. Ctr at San
Antonio, No. 5:16-CV-631-DAE, 2016 WL 8904949, at *10 (“So
while the Fifth Circuit has not decided whether “retaliatory hos­
tile work environment” is a cause of action, that has not stopped
it - nor this Court and nor this Court’s sister courts - from ad­
dressing the component elements of a retaliatory hostile work en­
vironment claim in substance; Tejada v. Travis Assoc, for Blind,
No. A-12-CV-997-DAE, 2014 WL 2881450, at *3 (W.D. Tex. June
25, 2014), aff’d, 617 F. App’x 325 (5th Cir. 2015) (“The Court will
leave for the Fifth Circuit the question of whether such a cause of
action exists, and will assume for the purposes of this motion that
Tejada may pursue a ‘retaliatory hostile work environment’ the­
ory.”); Perez v. Brown, No. CIV.SA-97-CA-289-PMA, 1999 WL
33289707, at *7 (W.D. Tex. May 10, 1999) (reasoning that

App. 45
elements of this potential cause of action have not been
articulated, sister courts have applied a hybrid ap­
proach of a Title VII retaliation claim and a Title VII
hostile work environment claim.108 Under this hybrid
approach, a plaintiff must show that the harassment
was a result of protected activity. 109
Plaintiff’s claim of retaliatory hostile work envi­
ronment must fail for the same reason as the retalia­
tion claim. As discussed above, Plaintiff has not
provided sufficient factual detail of the timing of the
alleged fifteen hostile acts with the filing of the EEOC
complaint and hotline complaint. Consequently, he has
not stated a claim for retaliatory hostile work environ­
ment under Title VII.
In sum, “subsequent” is not enough to plead the
requisite element of causality between the protected
activity and the alleged unlawful actions. Plaintiff’s
pleading fails to move his claim from conceivable to
plausible. While he is not required to make out a prima
facie case of retaliation at this stage of the litigation,
he must still provide sufficient factual allegations that
McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1977), “implic­
itly recognized a separate cause of action for a retaliatory hostile
work environment.”).
108
See McCorvey v. Univ. of Tex. Heatlh Sci. Ctr. at San An­
tonio, No. 5:16-CV-631-DAE, 2016 WL 8904949, at *11 (W.D. Tex.
Dec. 21, 2016); see also Tejada, 2014 WL 2881450, at *3; Cavazos
v. Berry, 2010 WL 785860, at *7 (Mar. 8, 2010 S.D. Tex.).
109
See McCorvey, 2016 WL 8904949, at *11; Cavazos, 2010
WL 785860, at *7 (“the Plaintiff would have to present evidence
that the harassment was a result of her protected activity”).

App. 46
plead a plausible claim of relief.110 The complaint must
“give the defendant fair notice of what the . . . claim is
and Plaintiff’s
and the grounds upon which it rests,
Amended Complaint is too vague to provide fair notice
of the claim.
Consequently, the court REJECTS the Report
and Recommendation and DISMISSES Plaintiff’s
second claim for relief. The court notes again that it is
not clear if Plaintiff is pleading retaliation, retaliatory
hostile work environment, or both, but Plaintiff’s claim
fails regardless.
C. Second Amended Complaint
Interestingly enough, Plaintiff filed a Second
Amended Complaint following the Report and Recom­
mendation, but prior to the disposition of this Mo­
tion.112 First, Plaintiff erred when he did not request
leave to file an amended complaint as required by Fed­
eral Rule of Civil Procedure 15. Second, the Second
Amended Complaint fails to remedy the deficiencies of
the Amended Complaint.
The only significant difference between the two
complaints is that Plaintiff asserts relief under the Age
no See Chhim v. TJniv. of Tex. at Austin, 836 F.3d 467, 470
(5th Cir. 2016) (in a disparate treatment claim). Plaintiff has not
clearly pleaded whether he seeks relief based on direct evidence
or disparate treatment.
111 Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007)
(internal quotation marks omitted).
112 See generally Second Am. Compl.

App. 47
Discrimination in Employment Act of 1967 (“ADEA”)
in the Second Amended Complaint.113 However, the
Second Amended Complaint, like the Amended Com­
plaint, does not provide adequate age-related factual
contentions. The extent of Plaintiff’s age-related alle­
gations are largely conclusory, consisting of: (1) that
hostile actions occurred “because of his . . . age . . . ”114.
(2) that Jordison gave Plaintiff poor evaluations
“which assured that female employees under 40 years
of age . . . would be selected rather than Plaintiff”115;
(3) that Ayers, who is under 30 years of age received
preferential treatment; (4) that the State Director gave
preferential treatment to younger female employees116;
and (5) “created a working environment hostile to
Plaintiff based upon Plaintiff’s sex and age. .. . ”117
These allegations are conclusory. Further, the correla­
tion between Ayers and her age does not necessarily
suggest that she received preferential treatment based
on age and not another reason. Accordingly, Plaintiff’s
Second Amended Complaint does not affect this court’s
dismissal of his age-related claim.
With respect to his Title VII hostile work environ­
ment claim on the basis of sex, the Second Amended
Complaint fails to provide any additional detail. The
allegations continue to be vague and conclusory, and
Plaintiff fails to provide any additional detail
113
114
115
116
117

See id. at 2 1 3.
Id. at 3 f 8.
Id. at 3-4 l 12.
Id. at 6 l 20.
Second Am. Compl. 7 *1 21(m).

App. 48
remedying the lack of a causal link between sex dis­
crimination and hostile work environment. With re­
gard to his Title VII claim on the basis of engaging in
protected activity, the Second Amended Complaint
does not provide any further detail beyond “subse­
quent” with respect to timing.118
In conclusion, the Second Amended Complaint
does not alter the disposition of this Motion for two rea­
sons: (1) Plaintiff did not request leave to file this ad­
ditional amended complaint; and (2) the Second
Amended Complaint fails to remedy the deficiencies of
the First Amended Complaint and therefore does not
adequately state a claim for relief.
IV. CONCLUSION AND ORDERS
In conclusion, Plaintiff has failed to state a Title
VII claim for hostile work environment on the bases of
sex or age. Moreover, Plaintiff has failed to state a Title
VII claim of retaliation and retaliatory hostile work en­
vironment. Accordingly, the court enters the following
orders:
1.

The “Report and Recommendation of the
United States Magistrate Judge” [ECF No 38]
is ADOPTED IN PART AND REJECTED
IN PART.

2.

“Defendant’s Motion to Dismiss for Failure to
State a Claim Upon Which Relief Can Be
Granted” [ECF No. 24] is GRANTED.

118 See id. at 6 'll 20.

App. 49
3.

The above-captioned cause is DISMISSED
WITHOUT PREJUDICE.

4.

“Defendant’s Motion to Dismiss Plaintiff’s
Second Amended Complaint for Failure to
State a Claim Upon Which Relief Can Be
Granted” [ECF No. 57] is DENIED AS
MOOT.

5.

The Clerk of the Court is INSTRUCTED to
CLOSE the above-captioned cause.

SO ORDERED.
SIGNED this 22nd day of May, 2018.
/s/ Frank Montalvo
FRANK MONTALVO
UNITED STATES DISTRICT JUDGE

App. 50
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
WACO DIVISION
TODD A. ENGLISH,

§

Plaintiff

§
§
§
§

VS
THOMAS J. VILSACK,
SECRETARY, USDA;
Defendant

Case No. W-16-CA00306-FM

§

§

ORDER
(Filed May 14, 2018)
Before the Court is Jon Ker’s Supplemental Mo­
tion to Withdraw. ECF No. 48. Counsel for the plaintiff,
Jon Ker, has twice previously moved to withdraw, and
the Court denied the motions. In the instant Motion,
counsel asserts that an irreconcilable conflict has
arisen between him and his client, Todd English. Coun­
sel’s affidavit, filed under seal, details the properlysupported factual basis of the Motion. ECF No. 51.
Without detailing the information contained in the
sealed affidavit, the Court finds that the affidavit effec­
tively establishes that the attorney-client relationship
has irretrievably broken down, and that the Motion
should be granted.
The Court notes that this case is currently not set
for trial until October 29, 2018, giving Plaintiff ade­
quate time to retain new counsel. Accordingly, it is

App. 51
ORDERED that the Supplemental Motion to
Withdraw (ECF No. 48) is GRANTED. Jon R. Ker is
permitted to withdraw as attorney of record for Plain­
tiff Todd A. English.
SIGNED this 14th day of May, 2018.
/s/ Jeffrey C. Manske_________
JEFFREY MANSKE
UNITED STATES
MAGISTRATE JUDGE

App. 52
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
WACO DIVISION
TODD A ENGLISH
Plaintiff,
v.
SONNY PERDUE,
Secretary, U.S. Department
of Agriculture
Defendant.

§
§
§
§
C.A No. 6:16-cv§

” 306-FM-JCM
§
§
§

REPORT AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
(Filed Mar. 2, 2018)
TO: THE HONORABLE FRANK MONTALVO,
UNITED STATES DISTRICT JUDGE
This Report and Recommendation is submitted to
the Court pursuant to 28 U.S.C. § 636(b)(1)(c) and
Rules 1(d) and 4(b) of Appendix C of the Local Rules of
the United States District Court for the Western Dis­
trict of Texas, Local Rules for the Assignment of Duties
to United States Magistrate Judges. This court has ju­
risdiction to review the Plaintiff’s claims pursuant to
23 U.S.C. § 1331.
Pending before the Court is Sonny Perdue’s, Sec­
retary of the U.S. Department of Agriculture, (“Defend­
ant”) Motion to Dismiss for Failure to State a Claim
against Plaintiff Todd English. ECF No. 24. As

App. 53
explained in detail below, the undersigned RECOM­
MENDS that Defendant’s Motion to Dismiss (ECF No.
24) be DENIED. The undersigned also RECOM­
MENDS that the Court order Plaintiff to replead his
action with sufficient factual detail.
I. FACTUAL BACKGROUND
Plaintiff Todd English is a citizen of the State of
Texas and an employee of Defendant. Pl.’s Compl. ^1 1.
English, a Caucasian male above the age of 40, alleges
that he was subjected to discrimination due to his age
and sex, which led to a hostile and retaliatory work en­
vironment. Id. at UK 6, 7. English alleges that he per­
formed his employment services in a satisfactory
manner since he began his employment as a Housing
Technician (GS-1101-07) for the Rural Development,
Single Family Housing Division in Temple, Texas, and
later the Community Programs division under Defend­
ant in August 2009. Id. at f 5.
Despite his satisfactory performance, English al­
leges that his supervisor Theresa Jordison, Housing
Program Director, and the Texas State Director, Fran­
cisco “Paco” Valenin Jr., created, allowed and encour­
aged a hostile work environment against English
because of his sex and age, as well as in retaliation for
his pursuit of a claim through the EEOC complaint
process. Id. at f 5. English alleges Jordison and Va­
lenin, who were empowered by Perdue, created a hos­
tile and retaliatory work environment by referring to
English as a “dumb shit,” falsely accused him of acts

App. 54
he did not commit, threatening termination of his em­
ployment, giving him unsatisfactory performance re­
views which eliminated his chances of being promoted,
denying his leave requests without justification, sub­
jecting him to an unreasonable investigation, and plac­
ing him on administrative leave for ten weeks while
the investigation was conducted, amongst other alle­
gations. Id. at M 8, 9,12,13,21.
English alleges that due to this hostile and retali­
atory conduct from his superiors, he was denied pro­
motional opportunities for which he was qualified but
declared ineligible due to discriminatory performance
appraisal that Jordison gave him. Id. at f 23. English
also alleges that these positions were filled by females
who were discriminatorily protected by Perdue. Eng­
lish seeks compensation for lost wages and benefits,
reasonable compensatory damages, and damages for
physical illness, severe mental anguish, and emotional
distress. Id. at f 23. English also alleges that he ex­
hausted his administrative remedies by filing three (3)
written charges of discrimination with the EEO office
of the USDA, and that English’s amended complaint
was filed within ninety (90) days of receipt of the Final
Agency Decision. Id. at f 24.
English alleges two claims for relief in his com­
plaint. First, that Perdue violated Title VII by under­
taking a pattern of discrimination based on English’s
sex (male) and age (40) that created a retaliatory and
hostile work environment. Id. at I'll 26, 29. Second,
that Perdue’s behavior was retaliatory toward English
for his participation in protected activity. Id. at f 31.

App. 55
This motion is fully briefed. English’s Amended
Complaint (“Complaint”) was filed July 13, 2017. ECF
No. 17. Perdue filed a Motion to Dismiss for Failure to
State a Claim (“Motion”) on October 13,2017. ECF No.
24. English filed a Response (“Response”) October 25,
2017. Pl.’s Resp.; ECF No. 25. Perdue filed a Reply to
English’s Response (“Reply”) on November 1, 2017.
Def.’s Reply; ECF No. 27.
II. RELEVANT LAW
Defendant moves to dismiss Plaintiff’s claims pur­
suant to Federal Rule of Civil Procedure 12(b)(6). To
survive 12(b)(6) dismissal, a plaintiff must plead
enough facts to state a claim to relief that is both le­
gally cognizable and plausible on its face, but the court
should not evaluate the plaintiff’s likelihood of suc­
cess. Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007); Lone Star Fund V (U.S.), L.P. v. Barclays Bank
PLC, 594 F.3d 383, 387 (5th Cir. 2010). The Federal
Rules of Civil Procedure require a complaint contain “a
short and plain statement of the claim showing that
the pleader is entitled to relief,” Fed. R. Civ. P. 8(a)(2),
“in order to give the defendant ‘fair notice’ of what the
claim is and the grounds upon which it rests.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007) (internal
quotation marks and ellipsis omitted). This requires
Plaintiff to do more than simply allege legal conclu­
sions or recite the elements of a cause of action. See id.
at 555, n.3. Plaintiff is required to “plead enough facts
to state a claim to relief that is plausible on its face.”
Id. at 570. “A claim has facial plausibility when a

App. 56
plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is li­
able for the misconduct alleged.” Ashcroft v. Iqbal, 556
U.S. 662,678 (2009). A pleading that offers “labels and
conclusions,” “naked assertion [s]” devoid of “further
factual enhancement,” or “a formulaic recitation of the
elements of a cause of action” will not suffice. Twombly,
550 U.S. at 555,557; see also Taylor v. Books A. Million,
Inc., 296 F.3d 376, 378 (5th Cir. 2002). Evaluating the
plausibility of a claim is a context specific process that
requires a court to draw on its experience and common
sense. Iqbal, 556 U.S. at 679.
Title VII of the Civil Rights Act of 1964 makes it
“an unlawful employment practice for an employer . . .
to discriminate against any individual with respect to
his compensation, terms, conditions, or privileges of
employment, because of such individual’s race, color,
religion, sex, or national origin.” 42 U.S.C. § 2000e2(a)(1). A Title VII complaint need not contain greater
particularity, as this would too narrowly constrict the
role of the pleadings; rather, the ordinary rules for as­
sessing the sufficiency of a complaint apply to Title VII
actions. Swierkiewicz v. Sorema N. A., 534 U.S. 506
(2002).

App. 57
III. DISCUSSION
Defendant contends that Plaintiff fails to properly
state sufficient factual assertions to show that Plaintiff
is entitled to the relief sought. Def’s Mot. at 1. Defend­
ant argues that Plaintiff’s Amended Complaint does
not adequately state a claim for hostile work environ­
ment, nor does it state a claim for a retaliatory work
environment. Id. at 1, 3.
A. Hostile Work Environment
Plaintiff alleges that Defendant violated Title VII
by unlawfully undertaking in a pattern of discrimina­
tory, retaliatory, and hostile manner towards Plaintiff
due to his age and his sex. Pl.’s Compl. <H'j[ 26, 29. De­
fendant asserts in its Motion that Plaintiff fails to
make factual allegations sufficient to establish all ele­
ments of a hostile work environment claim pursuant
to Title VII. Def.’s Mot. at 1. More specifically, Defend­
ant argues 1) that age discrimination is not supported
by a Title VII claim for a hostile work environment,
and 2) that Plaintiff’s complaint does not contain spe­
cific facts that show the harassment was based solely
on his sex. Id. at 2.
A hostile work environment claim under Title VII
is actionable when a workplace is permeated with dis­
criminatory intimidation, ridicule, and insult that is
sufficiently severe or pervasive to alter conditions of
victim’s employment and create abusive working envi­
ronment. Harris v. Forklift Sys., Inc., 510 U.S. 17, 21
(1993). To establish the elements of a hostile work

App. 58
environment claim under Title VII, Plaintiff must suf­
ficiently plead: 1) he belongs to a protected group; 2) he
was subjected to unwelcome harassment; 3) the har­
assment complained of was based on his sex; 4) the
harassment complained of affected term, condition, or
privilege of employment; and 5) his employer knew or
should have known of harassment in question and
failed to take prompt remedial action. Ramsey v. Hen­
derson, 286 F.3d 264 (5th Cir. 2002); Wyly v. W.F.K.R.,
Inc., 1 F. Supp. 3d 510, 513 (W.D. Tex. 2014) (citing
Hockman v. Westward Commons, LLC, 407 F.3d 317,
325 (5th Cir. 2004)).
This standard requires an objectively hostile or
abusive environment—one that a reasonable person
would find hostile or abusive—as well as the victims
subjective perception that the environment is abusive.
Id. at 21; Meritor Sav. Bank, FSB v. Vinson, 477 U.S.
57,67 (1986). To be actionable under Title VII as “abusive/
hostile work environment” harassment, the conduct
need not seriously affect employees psychological well­
being or lead employee to suffer injury, so long as envi­
ronment would reasonably be perceived, and is per­
ceived, as hostile or abusive. Id. at 22.
i.

Age is not a class covered by Title VII

Title VII deals with discrimination due to an indi­
vidual’s race, color, religion, sex, or national origin. 42
U.S.C. § 2000e-2(a)(l). Title VII does not include age as
a protected class. Id. Plaintiff attempts to maneuver
around this fact by using Fifth Circuit precedent

App. 59
regarding the Age Discrimination in Employment Act
of 1967 (“ADEA”) claims in Dediol. Dediol v. Best Chev­
rolet, Inc., 655 F.3d 435 (5th Cir. 2011). However, Plain­
tiff’s reliance on Dediol in his Response is misguided.
Pl.’s Resp. at 3.
In Dediol, a 65-year old employee was frequently
denigrated by his supervisor with terms such as “old
motherf-er”, “old man”, and “pops.” Id. at 337. Dediol’s
supervisor also mocked his religion and physically in­
timidated him. The plaintiff in Dediol sued using an
ADEA cause of action, and the ruling expressly held
that “a plaintiff’s hostile work environment claim
based on age discrimination under the ADEA may be
advanced in [the Fifth Circuit].” Reed v. Neopost USA,
Inc., 701 F.3d 434, 442 n.7 (5th Cir. 2012). The ruling
clearly dealt with the issue that was before the court:
whether the ADEA included possible hostile work en­
vironment claims. The court did not hold that ADEA
claims and Title VII claims were synonymous, but in­
stead stated that the two claims are statutorily dis­
tinct and did not “read in” age as a protected class
under Title VII. As the Supreme Court has ruled, the
differences between the ADEA and the protected clas­
ses of Title VII are relevant, and that Congress in­
tended to treat the two differently. Smith v. City of
Jackson, Miss., 544 U.S. 228, 236 (2005).1 Dediol is
1 In Smith v. City of Jackson, Miss., Justice Sandra Day
O’Connor ruminated on the differences between the ADEA and
Title VII when she stated that “the ADEA’s text, legislative his­
tory, and purposes together make clear that Congress did not in­
tend the statute to authorize such [age discrimination] claims.
Moreover, the significant differences between the ADEA and Title

App. 60
distinguishable from the case at hand in two critical
respects: 1) Plaintiff English does not plead specific,
age-related facts in his pleading, and 2) Plaintiff Eng­
lish is not suing under the ADEA. If Plaintiff wishes to
show the hostile or retaliatory work environment he
was subjected to was the result of age discrimination,
a Title VII suit is the incorrect cause of action. Based
on Plaintiff’s allegation, the Age Discrimination in
Employment Act appears to be a more viable vehicle.
ii.

Sex is a protected class under Title VII

Plaintiff also alleges that he was harassed due to
his sex. Sex is a protected class under Title VII, mean­
ing that Plaintiff can properly bring a hostile work en­
vironment claim under Title VII. 42 U.S.C. § 2000e2(a)(1).
In order to properly plead a hostile work environ­
ment claim, a plaintiff must show that 1) he belongs to
protected group; 2) he was subjected to unwelcome har­
assment; 3) harassment complained of was based on
his sex; 4) harassment complained of affected term,
condition, or privilege of employment; 5) employer
knew or should have known of harassment in question
and failed to take prompt remedial action. Ramsey v.
Henderson, 286 F.3d 264 (5th Cir. 2002); McCorvey v.
Univ. of Texas Health Sci. Ctr. at San Antonio, 2016 WL
8904949, at *12 (W.D. Tex. Dec. 21, 2016). Defendant
VII of the Civil Rights Act counsel against transposing to the for­
mer our construction of the latter in Griggs v. Duke Power.” Smith
v. City of Jackson, Miss., 544 U.S. 228, 236 (2005).

App. 61
argues that Plaintiff fails to adequately allege that the
harassment complained of was based on his sex. Def.’s
Mot. at 2.
At this stage, this Court simply looks to whether
Plaintiff has pleaded enough facts to plausibly state a
claim to relief under Title VII. Twombly, 550 U.S. at
570. In his complaint, Plaintiff alleges several factual
assertions that if true, would sufficiently show that the
harassment complained of was due to his sex. Plaintiff
offers several factual assertions that prevent this
Court from granting Defendant’s Motion to Dismiss for
Failure to State a Claim. Plaintiff alleges that, due to
his sex and because he pursued a claim through the
EEOC process, he was subjected to harassing behavior
from Jordison, including: unjustified denials of leave
requests, a higher level of scrutiny than his similarly
situated coworkers, having female coworkers who had
no supervisory control over him monitor his coming
and going and report them to Jordison, changing his
status from leave to AWOL, openly mocking him in the
workplace, being told that he should “find another job”
when he complained of discriminatory treatment, and
at that one point he was banned from entering the east
side of the State Office building which detracted from
his ability to do his job. Pl.’s Compl. at
6,8, 21
It is not incumbent on the Court at this stage to
make definitive factual determinations, but simply to
decide whether or not the pleading states enough fac­
tual assertions to plausibly state claims to relief under
Title VII. Twombly, 550 U.S. at 570. The Court

App. 62
RECOMENDS that Defendant’s Motion to Dismiss be
denied with regard to the instant claim.
B. Retaliatory Work Environment
While both parties are correct in asserting that
the Fifth Circuit has not specifically recognized a cause
of action for retaliatory work environment or harass­
ment under Title VII, the Circuit has not foreclosed
such a cause of action. Heath v. Bd. of Supervisors for
S. Univ. & Agric. & Mech. Coll., 850 F.3d 731, 742 n.5
(5th Cir. 2017) (“we have not recognized a retaliatory
hostile work environment cause of action”); Fallon v.
Potter, 277 Fed. Appx. 422, 424 (5th Cir. 2008) (Fifth
Circuit holding that it did not need to decide whether
to recognize retaliatory hostile work environment
claim because plaintiff could not establish a prima fa­
cie case of hostile work environment). Given the ab­
sence of binding authority, courts in the Fifth Circuit
have assumed that a retaliatory work environment
claim can be brought. Zavala v. Carrollton-Farmers
Branch Indep. Sch. Dist, 3:16-CV-1034-D, 2017 WL
274133, at *2 (N.D. Tex. Jan. 20, 2017) (See Rowe v.
Jewell, 88 F. Supp. 3d 647, 673 (E.D. La. 2015) (“[T]his
court will assume, as other district courts in this cir­
cuit have done, that [plaintiff] has a cause of action for
a retaliatory hostile work environment)). In fact, in
Barnes v. McHugh, the Eastern District of Louisiana
rejected an argument similar to Defendant’s. In that
case, the court rejected a motion to dismiss plaintiff’s
retaliatory work environment claim because “the Fifth
Circuit has considered a retaliatory hostile work

App. 63
environment claim [in Fallon], it has therefore recog­
nized its potential validity.” McCorvey v. Univ. of Texas
Health Sci. Ctr. at San Antonio, 2016 WL 8904949, at
*10 (W.D. Tex. Dec. 21,2016) (citing Barnes v. McHugh,
2013 WL 3561679 (E.D. La July 11, 2013)).
To establish a prima facia case of retaliatory work
environment under Title VII, Plaintiff must show that
1) he engaged in conduct protected by Title VII; 2) he
suffered a materially adverse action; and 3) a causal
connection exists between the protected activity and
the adverse action. Jenkins v. City of San Antonio Fire
Dept., 784 F.3d 263, 269 (5th Cir. 2015) (See Aryain v.
Wal-Mart Stores Tex. LP, 534 F.3d 473, 484 (5th Cir.
2008); McCoy v. City of Shreveport, 492 F.3d 551, 557
(5th Cir. 2007). Protected conduct has been held to in­
clude the filing of an EEOC charge. Harvill v. Westward
Commons, LLC, 433 F.3d 428,439 (5th Cir. 2005).
Perdue argues in his Motion that two of these ele­
ments are not met: 1) that Plaintiff did not suffer an
adverse employment action, and 2) that Plaintiff does
not properly plead that there is a causal connection be­
tween Plaintiff’s participation in protected activity
and an adverse employment action. Def.’s Mot. at 3-4.
First, Defendant does not dispute that Plaintiff
properly alleges that he engaged in protected conduct
twice: 1) Plaintiff filed a Charge of Discrimination, and
2) Plaintiff filed a “hotline” complaint with the Office
of the Inspector General. Pl.’s Compl. at M 8,21; West­
ward Commons, LLC, 433 F.3d 428.

App. 64
Second, Plaintiff adequately alleges an adverse
employment action as a result of the alleged discrimi­
nation based on his sex. The Fifth Circuit has a “strict
interpretation of the adverse employment element of
[the] prima facie intentional discrimination case” un­
der Title VII that is limited to ultimate employment
decisions such as “hiring, granting leave, discharging,
promoting, or compensating.” McCoy v. City of Shreve­
port, 492 F.3d 551, 559 (5th Cir. 2007)). This does not
include disciplinary warnings or negative performance
evaluations. Noel v. Shell Oil Co., 261 F. Supp. 3d 752,
768 (S.D. Tex. 2017) (citing Arrieta v. Yellow Transp.,
Inc., 2008 WL 5220569 (N.D. Tex. Dec. 12,2008)). While
his negative performance reviews alone would not con­
stitute an adverse employment action under Shell Oil
or Yellow Transp., their deleterious impact on his abil­
ity to be promoted, and in fact barring him from pro­
motion, may constitute an adverse employment action.
Also, Plaintiff alleges that Defendant denied his leave
requests without reasonable justification, which is con­
sidered an ultimate employment decision. Pl.’s Compl.
at f 13; McCoy, 492 F.3d at 559.
Lastly, Plaintiff must plead a causal link between
the protected activity and the adverse employment ac­
tion. Jenkins, 784 F.3d 263. The Fifth Circuit has held
that this process is “highly fact specific” and identified
several factors that may be considered in determining
whether a causal, “but-for” link has been demon­
strated: 1) the employees past disciplinary record; 2)
whether the employer followed its usual disciplinary

App. 65
procedures when taking the adverse action; and 3) the
temporal relationship between the protected activity
and the adverse action. Cavazos v. Berry, 2010 WL
785860, at *5 (S.D. Tex. Mar. 8, 2010) (citing Nowlin v.
Resolution Trust Corp., 33 F.3d 498, 507-08 (5th
Cir.1994). Close timing alone may be a significant fac­
tor, but not necessarily determinative of retaliation.
Mayberry v. Vought Aircraft Co., 55 F.3d 1086, 1092
(5th Cir.1995).
Plaintiff has pleaded several factual allegations
that appear to meet this prong of the test: Jordison re­
peatedly singled him out for ridicule in front of his
coworkers even after he filed his EEOC complaint; the
State Director ridiculed him during staff meetings af­
ter he filed a “hotline” complaint with the Office of the
Inspector General; Jordison denied his leave requests
without giving justification; Jordison allegedly told
Plaintiff he “needed to find another job” after he com­
plained to her of unequal treatment; and Jordison did
not place him on a performance improvement plan be­
fore downgrading his performance, which is allegedly
required by the agency. Pl.’s Compl. at <][<J[ 6, 8, 13, 21.
Taken together, Plaintiff pleads sufficient facts to po­
tentially show a causal link between the protected ac­
tivity and the adverse employment action.
When viewed in the light most favorable to Plain­
tiff, the Court finds that Plaintiff’s Amended Com­
plaint adequately states a claim. Twombly, 550 US
at 570. However, Plaintiff does appear to conflate
claims for discriminatory work environment, retalia­
tory work environment, and retaliatory hostile work

App. 66
environment in his Response and Amended Com­
plaint, even though his second claim for relief simply
asks for relief from “acts, actions, and practices of De­
fendant [that] were retaliatory.” Pl.’s Compl. at f 31.
Therefore, while this Court RECOMMENDS that De­
fendant’s Motion to Dismiss be denied as to Plaintiff’s
claim of hostile work environment under Title VII, the
Court should order Plaintiff to submit a Second
Amended Complaint.
IV. RECOMMENDATION
Rather than dismiss the complaint in its entirety,
the Court should allow Plaintiff an opportunity to
amend. Accordingly, the Court RECOMMENDS that
Defendant’s Motion to Dismiss (ECF No. 24) be DE­
NIED. It is further RECOMMENDED that Plaintiff
be ordered to replead his complaint.
The parties may wish to file objections to this Re­
port and Recommendation. A party filing objections
must specifically identify those findings or recommen­
dations to which objections are being made. The Dis­
trict Court need not consider frivolous, conclusive, or
general objections. See Battle v. United States Parole
Comm’n, 834 F.2d 419,421 (5th Cir. 1987).
A partys failure to file written objections to the
proposed findings and recommendations contained in
this Report within fourteen (14) days after the party is
served with a copy of the Report shall bar that party
from de novo review by the District Court of the pro­
posed findings and recommendations in the Report

App. 67
and, except upon grounds of plain error, shall bar the
party from appellate review of unobjected-to proposed
factual findings and legal conclusions accepted by the
District Court. See 28 U.S.C. § 636(b)(1)(C); Thomas v.
Arn, 474 U.S. 140, 150-53 (1985); Douglass v. United
Servs. Auto. Ass’n, 79 F.3d 1415 (5th Cir. 1996) (en
banc). To the extent that a party has not been electron­
ically served by the Clerk with this Report and Recom­
mendation pursuant to the CM/ECF procedures of this
district, the Clerk is directed to send such party a copy
of this Report and Recommendation by a national over­
night delivery service having confirmation of pickup
and delivery.
SIGNED this 2nd day of March, 2018.
/s/ Jeffrey C. Manske
JEFFREY MANSKE
UNITED STATES
MAGISTRATE JUDGE

App. 68
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-50530
TODD A. ENGLISH,
Plaintiff-Appellant
v.
SONNY PERDUE, Secretary, USDA,
Defendant-Appellee
Appeal from the United States District Court
for the Western District of Texas
ON PETITION FOR REHEARING EN BANC
(Filed Sep. 6,2019)
(Opinion June 19, 2019, 5 Cir.____ ,

F.3d

Before HIGGINSON and WILLETT, Circuit Judges,
and BROWN, District Judge.*
PER CURIAM:
('O Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled on
* Debra M. Brown, United States District Judge, Northern
District of Mississippi.

App. 69
Rehearing En Banc (Fed. R. App. P. and 5th Cir.
R. 35), the Petition for Rehearing En Banc is DE­
NIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (Fed. R. App. P. and 5th Cir.
R. 35), the Petition for Rehearing En Banc is DE­
NIED.
ENTERED FOR THE COURT:
/s/ Debra M. Brown
UNITED STATES CIRCUIT JUDGE

